                                       SOCIAL SECURITY
MEMORANDUM

Date:      February 25, 2011                                              Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Performance Indicator Audit: Hearings and Appeals Backlog (A-15-10-11075)


           We contracted with KPMG to evaluate 10 of the Social Security Administration’s
           performance indicators (PI) established to comply with the Government Performance
           and Results Act. The attached final report presents the results of three of the PIs
           evaluated. For the PIs included in this audit, KPMG’s objectives were to:

           1. Comprehend and document the sources of data that were collected to report on the
              specified PI.

           2. Identify and test critical controls (both electronic data processing and manual) of
              systems from which the specified performance data were generated.

           3. Test the adequacy, accuracy, reasonableness, completeness, and consistency of
              the underlying data for the specified PI.

           4. Recalculate each measure to ascertain its accuracy.

           Please provide within 60 days a corrective action plan that addresses each
           recommendation. If you wish to discuss the final report, please call me or have your
           staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
           (410) 965-9700.




                                                            Patrick P. O’Carroll, Jr.


           Attachment
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


    PERFORMANCE INDICATOR AUDIT
    HEARING AND APPEALS BACKLOG


      February 2011   A-15-10-11075




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of the Social Security
Administration’s (SSA) programs and operations and protect them against fraud,
waste and abuse. We provide timely, useful and reliable information and advice
to Administration officials, Congress and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

To ensure objectivity, the Inspector General (IG) Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.


                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                    Executive Summary
OBJECTIVE

For this audit of Social Security Administration (SSA) performance indicators (PI) for
Fiscal Year (FY) 2009, Achieve the Target to Eliminate the Oldest Hearings Pending,
Achieve the Target to Eliminate the Oldest Appeals Council Cases Pending; and
Achieve the Target for Average Processing Time of Appeals Council Decisions, our
objectives were to:

1. Comprehend and document the sources of data that were collected to report on the
   specified PI.

2. Identify and test critical controls (both electronic data processing and manual) of
   systems from which the specified performance data were generated.

3. Test the adequacy, accuracy, reasonableness, completeness, and consistency of
   the underlying data for the specified PI.

4. Recalculate each measure to ascertain its accuracy.

BACKGROUND
The Government Performance and Results Act of 1993 (GPRA)1 requires that SSA
develop PIs that assess the relevant service levels and outcomes of each program
activity. 2 GPRA also calls for a description of the means employed to verify and
validate the measured values used to report on program performance. 3

Our audit was conducted in accordance with generally accepted government auditing
standards for performance audits. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.




1
 Public Law Number (Pub. L. No.) 103-62, 107 Stat. 285 (codified as amended in scattered sections of
5 United States Code [U.S.C.], 31 U.S.C. and 39 U.S.C.).
2
    31 U.S.C. § 1115(a)(4).
3
    31 U.S.C. § 1115(a)(6).


Performance Indicator Audit: Hearing and Appeals Backlog (A-15-10-11075)                               i
RESULTS OF REVIEW
Our audit did not identify any significant findings related to the internal controls over the
systems supporting the PI. In addition, our audit did not identify significant findings with
the adequacy, accuracy, reasonableness, completeness, and consistency of the
underlying data for the indicators subject to audit. We were able to recalculate the
accuracy of the PI without exception. However, our audit identified areas for
improvement related to internal controls and accuracy of the underlying data presented
and disclosed in the Performance and Accountability Report (PAR) for the indicators:
(1) Achieve the Target to Eliminate the Oldest Hearings Pending, (2) Achieve the Target
to Eliminate the Oldest Appeals Council Cases Pending, and (3) Achieve the Target for
Average Processing Time of Appeals Council Decisions.

RECOMMENDATIONS
We recommend that SSA:

1. Consider implementing policies, procedures, and/or training to ensure disability
   hearing and Appeals Council (AC) request form dates are properly entered into the
   Case Processing and Management System (CPMS) or the Appeals Review
   Processing System (ARPS).

2. Consider implementing policies and procedures to ensure the Notice of Disposition is
   sent to the claimant in a timely manner and recorded accurately in CPMS or ARPS.

3. Consider implementing procedures to ensure the CPMS Batch Processing
   Spreadsheet is completed accurately on a daily basis along with the sign off page to
   document the review of the spreadsheet.

4. Consider implementing procedures to ensure independent personnel regularly
   review activity on the Disability Adjudication Reporting Tool (DART) database.

In response to prior PI audits, SSA stated it did not maintain data to support some PIs
because of computer storage capacity issues and staffing resources. Over the past
several years, technology has evolved. Therefore, this is an opportune time for SSA to
reevaluate computer storage capacity. In prior audits, SSA also quoted Office of
Management and Budget (OMB) Circular A-11, Preparation, Submission and Execution
of the Budget, which states, “Performance data need not be perfect to be reliable,
particularly if the cost and effort to secure the best performance data will exceed the
value of any data so obtained.”4 Currently, Circular A-11 states that “Performance data
need not be perfect to be reliable; however, significant data limitations can lead to


4
 See for example, OIG Performance Indicator Audit: Outstanding Debt (A-02-05-15116, January 2006,
p. D-2).



Performance Indicator Audit: Hearing and Appeals Backlog (A-15-10-11075)                            ii
inaccurate assessments and distort performance results. Examples of data limitations
include imprecise measurement and recordings, incomplete data, and inconsistencies in
data collection procedures.” 5

Additionally, Circular A-11, section 230.5, states that verification and validation of
performance data to support the general accuracy and reliability of performance
information reduces the risk of inaccurate performance data, and provides a sufficient
level of confidence to the Congress and the public that the information presented is
credible. 6 Although we are not making formal recommendations relating to maintaining
data, we encourage SSA to revisit the issue of maintaining data to support the PIs
reported in the Agency’s annual PAR. Maintaining the supporting data would enable
third-party evaluations of the PI, as suggested by Circular A-11.

AGENCY COMMENTS
While SSA agreed with our recommendations, SSA did not agree with our statement to
reevaluate its computer storage capacity. SSA stated that it would not be implementing
any processes for storing PI data because of technical and staffing constraints. SSA
suggested that KPMG consider an equally effective technique for auditing PI activity
“real-time” as it is produced, rather than trying to reconstruct Management Information
1 year later.

The text of SSA’s general comments can be found in Appendix D.

KPMG RESPONSE
We appreciate the Agency’s comments and consideration of our statement. Reviewing
real-time data as SSA produces it only provides evidence that the data are available in
the year produced. It does not provide sufficient evidence of the underlying data
supporting the FY being audited.




5
    OMB Circular A-11, Preparing, Submitting, and Executing the Budget, November 2010, Section 230.5.
6
    Ibid.


Performance Indicator Audit: Hearing and Appeals Backlog (A-15-10-11075)                                iii
                                                                      Table of Contents
INTRODUCTION ............................................................................................................. 1

RESULTS OF REVIEW .................................................................................................. 5

  Achieve the Target to Eliminate the Oldest Hearings Pending ..................................... 5

  Achieve the Target to Eliminate the Oldest Appeals Council Cases Pending............... 8

  Achieve the Target for Average Processing Time for Appeals Council Decisions ...... 10

CONCLUSIONS AND RECOMMENDATIONS ............................................................. 12

APPENDICES

APPENDIX A - Acronyms

APPENDIX B - Process Flowchart - Hearings and Appeals

APPENDIX C - Scope and Methodology

APPENDIX D - Agency Comments




Performance Indicator Audit: Hearing and Appeals Backlog (A-15-10-11075)
                                                                         Introduction
OBJECTIVE
The Government Performance and Results Act of 1993 (GPRA)1 requires that the
Social Security Administration (SSA) develop performance indicators (PI) that assess
the relevant service levels and outcomes of each program activity. 2 GPRA also calls for
a description of the means employed to verify and validate the measured values used to
report on program performance. 3

Our audit was conducted in accordance with generally accepted government auditing
standards for performance audits. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

For this audit of SSA’s PIs for Fiscal Year (FY) 2009, Achieve the Target to Eliminate
the Oldest Hearings Pending; Achieve the Target to Eliminate the Oldest Appeals
Council Cases Pending; and Achieve the Target for Average Processing Time of
Appeals Council Decisions, our objectives were as follows.

1. Comprehend and document the sources of data that were collected to report on the
   specified PI.

2. Identify and test critical controls (both electronic data processing and manual) of
   systems from which the specified performance data were generated.

3. Test the adequacy, accuracy, reasonableness, completeness, and consistency of
   the underlying data for the specified PI.

4. Recalculate each measure to ascertain its accuracy.

                                          ******************




1
 Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C. and
39 U.S.C.).
2
    31 U.S.C. § 1115(a)(4).
3
    31 U.S.C. § 1115(a)(6).


Performance Indicator Audit: Hearings and Appeals Backlog (A-15-10-11075)                             1
This performance audit did not constitute an audit of financial statements in accordance
with government auditing standards. KPMG was not engaged to, and did not, render an
opinion on SSA’s internal controls over financial reporting or over financial management
systems (for purposes of Office of Management and Budget [OMB] Circular A-127,
Financial Management Systems, July 23, 1993, as revised). KPMG cautions that
projecting the results of our audit to future periods is subject to the risks that controls
may become inadequate because of changes in conditions or because compliance with
controls may deteriorate.

BACKGROUND
We audited the following PIs, which were included in SSA’s FY 2009 Performance and
Accountability Report (PAR).

                     PI                   FY 2009 – Target            FY 2009 – Actual

    Achieve the Target to Eliminate     Less Than 1 Percent of      228 of 166,838 Cases
    the Oldest Hearings Pending 4         Hearings Pending           Remained Pending
                                          850 Days or Older             (.14 Percent)
    Achieve the Target to Eliminate     Less than 1 Percent of       10 of 12,184 Cases
    the Oldest Appeals Council Cases    Appeals Council Cases        Remained Pending
    Pending 5                            Pending 750 Days or            (.08 Percent)
                                                Older
    Achieve the Target for Average
    Processing Time of Appeals                 265 Days                     261 Days
    Council Decisions 6

The strategic objective related to these PIs is Improve Our Workload Management
Practices Throughout the Hearing Process. 7 The PIs are intended to measure/report
SSA’s progress in Strategic Goal 1: Eliminate SSA’s Hearings Backlog and Preventing
Its Recurrence.




4
    FY 2009 PAR, p. 49.
5
    FY 2009 PAR, p. 51.
6
    FY 2009 PAR, p. 51.
7
    FY 2009 PAR, p. 16.


Performance Indicator Audit: Hearings and Appeals Backlog (A-15-10-11075)                  2
SSA’s organizational mission is to “Deliver Social Security services that meet the
changing needs of the public.” 8 As part of this mission, SSA administers the Old-Age
and Survivors Insurance (OASI), Disability Insurance (DI), and Supplemental Security
Income (SSI) programs. The OASI program, authorized by Title II of the Social Security
Act (Act), provides income for eligible workers and eligible members of their families
and survivors. 9 The DI program, also authorized by Title II of the Act, provides income
for eligible workers with qualifying disabilities and for eligible members of their families
before those workers reach retirement age. 10 The SSI program, authorized by Title XVI
of the Act, was designed as a needs-based program to provide or supplement the
income of aged, blind, and/or disabled individuals with limited income and resources.11
A claimant may receive disability benefits under the DI and/or SSI programs
administered by SSA.

Based on the Act, an individual found to be disabled may qualify for disability benefits if
the following two criteria are met.

•      An individual must be unable to engage in substantial gainful activity because of a
       medically determinable physical or mental impairment; and12
•      The medical condition(s) must be expected to result in death or has lasted or can be
       expected to last for a period of not less than 12 months.13

For all initial disability claims submitted, one of three initial disability determinations is
made: favorable, partially favorable, or unfavorable. Once the decision is rendered to
the claimant, the claimant can either accept the decision or request reconsideration of
the claim. A claimant has 60 days to file for reconsideration regardless of the
decision. 14 A reconsideration request can be submitted electronically, through the mail,
or in person at an SSA field office (FO). Once the reconsideration has been reviewed, a
Reconsideration Decision is sent to the claimant. 15 Once the decision is made, the
claimant can either accept the decision or request a hearing.




8
    FY 2009 PAR, p. 7.
9
    The Act §§ 201-234, 42 U.S.C. §§ 401-434.
10
     Ibid.
11
     The Act §§ 1601-1637, 42 U.S.C. §§ 1381-1383f.
12
     The Act § 223 (d)(1).
13
     Ibid.
14
  Claimants are told they have 60 days to submit the additional appeal, in addition to a 5-day grace
period to account for mail delays, for a total of 65 days (Program Operations Manual System [POMS]
GN 03102.100).
15
  Not all cases go through the reconsideration steps due to the Prototype operating in 10 States (POMS
DI 12005.001).


Performance Indicator Audit: Hearings and Appeals Backlog (A-15-10-11075)                                3
SSA faces a considerable challenge of processing a large backlog of requests for
hearings at resource levels that have not kept pace with the rising level of hearings
requests and pending cases. The Agency has developed a four-pronged plan to
eliminate the backlog and prevent its recurrence, based on (1) expanding
compassionate allowances; (2) improving performance; (3) increasing adjudicatory
capacity; and (4) increasing efficiency with automation and business processes.




Performance Indicator Audit: Hearings and Appeals Backlog (A-15-10-11075)               4
                                                          Results of Review
Our audit did not identify any significant findings related to the internal controls over the
systems supporting the PI. In addition, our audit did not identify significant findings with
the adequacy, accuracy, reasonableness, completeness, and consistency of the
underlying data for the indicators subject to audit. We were able to recalculate the
accuracy of the PI without exception. However, our audit identified areas for
improvement related to internal controls and accuracy of the underlying data presented
and disclosed in the PAR for the indicators Achieve the Target to Eliminate the Oldest
Hearings Pending, Achieve the Target to Eliminate the Oldest Appeals Council Cases
Pending, and Achieve the Target for Average Processing Time of Appeals Council
Decisions.

ACHIEVE THE TARGET TO ELIMINATE THE OLDEST HEARINGS
PENDING
Indicator Background

This PI measures the reduction of the oldest hearings pending. The oldest hearings
pending are those cases that are pending or will be pending 850 days or more at the
end of the FY. Once a claimant has received his/her claim decision from the initial
claims process and the subsequent reconsideration process, the claimant may accept
the decision rendered by the adjudicator or request a hearing 16 to have the claim
reviewed by an administrative law judge (ALJ), the adjudicators SSA uses to decide
cases. A claimant has 60 days to file a request for a hearing upon notice of the decision
from the initial disability claims process or the reconsideration process. After hearings
are held or adjourned, hearings office staff updates the Case Processing and
Management System (CPMS) based on the decision rendered by the ALJ. For
additional indicator background information, see Appendix B.

The Management Information (MI) group freezes the data in the CPMS on the last
Friday in September so it cannot be changed. 17 As a result, the data reported for this PI
were run from September 27, 2008 to September 25, 2009. The calculation of the
performance target is performed by dividing the total number of hearings pending
850 days or older as of September 25, 2009 by the total number of hearings pending
850 days or older as of September 27, 2008.




16
  Claimants file a request for hearing by submitting form HA-501, Request for Hearing by an
Administrative Law Judge.
17
  For PI reporting purposes, SSA considers the last Friday in September as the last day of the reporting
period.


Performance Indicator Audit: Hearings and Appeals Backlog (A-15-10-11075)                                  5
PI Calculation

                                                    Total Number of Hearings Pending 850
        Percent of Hearings Pending                 Days or Older as of September 25, 2009
                                                =
            850 Days or Older                       Total Number of Hearings Pending 850
                                                    Days or Older as of September 27, 2008

Findings

We selected a sample of hearings cases that were closed in the FY and a sample of
hearings cases that were pending as of the end of the FY to determine the accuracy of
the cases reflected as closed or pending. Our testwork did not identify any significant
findings related to the internal controls over the systems supporting the PI. In addition,
we did not identify any significant findings related to the adequacy, accuracy,
reasonableness, completeness, and consistency of the underlying data for the specified
PI in the FY 2009 PAR. However, our audit identified areas for improvement related to
internal controls and accuracy of the results presented and disclosed in the PAR.

Accuracy of Underlying Data

In accordance with the Government Accountability Office (GAO) Standards for Internal
Control in the Federal Government, transactions should be recorded completely,
accurately, and timely. 18 We noted the following.

•     For 3 of 25 sampled disability hearings that were closed during the FY and for 2 of
      10 sampled disability hearings pending as of the end of the FY, the request dates
      per the disability hearing request form did not agree with the hearing request date
      recorded in CPMS. The differences between the hearing request date per CPMS
      and the disability hearing request form were caused by clerical errors. The
      differences in the dates per CPMS and the disability hearing request form did not
      affect the accuracy of the PI.

•     For all 25 sampled disability hearings that were closed during the FY, the date per
      the Notice of Disposition did not agree with the disposition date per CPMS. We
      noted a maximum difference of 6 days between the disposition date recorded in
      CPMS and the date per the Notice of Disposition. We noted that there were 785
      disability hearings that were processed and closed during the last 6 days of the FY
      per CPMS. Based on the results of our audit, 785 would be the maximum number of
      disability hearings that could have been recorded as being closed per CPMS during
      the FY, but the Notice of Disposition may not have been sent until FY 2010. These
      cases could have been recorded in CPMS as closed in the incorrect FY based on
      the date the Notice of Disposition was sent and not the date it was recorded as
      being closed per CPMS. Therefore, the number of disability hearing requests

18
     GAO/AIMD-00-21.3.1, November 1999, p.15.


Performance Indicator Audit: Hearings and Appeals Backlog (A-15-10-11075)                    6
      pending 850 days or older as reported in SSA’s FY 2009 PAR could be understated
      by 785 hearings. We noted that the FY 2009 target for this indicator was less than
      1 percent of hearings pending 850 days or older. Therefore, even if the number of
      hearing requests pending 850 days or older was understated by 785 cases, SSA
      would have achieved its target.

      The reason for the discrepancy in close-out dates is that decisions were not always
      mailed in the allotted timeframe. Effective July 12, 2008, all decisions involving
      disability cases required an electronic signature by an ALJ or Attorney Adjudicator.
      The electronic signature process updates CPMS, uploads a copy of the decision to
      the electronic folder, and post-dates the decisions 3 business days to allow for
      mailing. The support staff copies and mails the signed decision document to the
      claimant and the third-party representative, if any. SSA modified the process in
      November 2009, with the advent of centralized printing of electronic decisions, to
      eliminate discrepancies in the close-out dates.

Based on our audit, we do not believe these issues affect the accuracy of the PI.
However, these issues may potentially lead to future inaccurate reporting of the aging of
disability hearing requests in SSA’s PAR.

Critical Internal Controls – Accuracy and Completeness

In accordance with GAO’s Standards for Internal Control in the Federal Government,
transactions should be recorded completely, accurately, and timely. 19 We were unable
to obtain the detailed CPMS Batch Processing Spreadsheet for 6 of the 25 selected test
dates because SSA had no requirement to maintain CPMS Batch Processing
Spreadsheets on a daily basis. In addition, while testing the spreadsheets, we found
unresolved errors in the spreadsheets. SSA uses the CPMS Batch Processing
Spreadsheets to ensure that record counts between tape extracts and record counts
loaded into the Master Hearings and Appeals Operational Data Store (MHAODS) MI
database are consistent. 20 As a result, we could not verify the completeness and
accuracy of this key control in six instances for this PI. Based on our audit, we do not
believe this issue affected the accuracy of the PI. However, these issues may
potentially lead to future inaccurate reporting of the aging of disability hearing requests
in SSA’s PAR.




19
     GAO/AIMD-00-21.3.1, November 1999, p.15.
20
  The MHAODS database includes the run-to-run record counts that update the CPMS Batch Processing
Spreadsheet to verify that the number of records extracted from the Hearings and Appeals production
environment agrees with what was selected from the programs that captured the records over a 24-hour
period.


Performance Indicator Audit: Hearings and Appeals Backlog (A-15-10-11075)                          7
Achieve the Target to Eliminate the Oldest Appeals Council Cases
Pending
Indicator Background

This PI measures the reduction of the oldest Appeals Council (AC) cases pending. The
oldest AC cases are identified as those cases that are pending or will be pending
750 days or more at the end of the FY. If a claimant wishes to appeal the disability
claim decision made during the hearings process, he/she has an option to submit a
request for the AC to review the claim. Once the claimant has received the hearings
disposition, he/she has 60 days to file an appeal after the hearing decision is issued. 21
If a claimant does not file within 60 days, the claim is closed, and no further action is
taken. 22 The date the appeal request is received by any Social Security office is
considered the request for review date. For PI reporting purposes, the request for
review date is the date the case officially becomes a pending AC case. Once a decision
is rendered, a release notice is signed and mailed to the claimant. This signifies the
end of the AC appeals request process and is the point at which SSA considers a
disability claim appeal to have been processed. See Appendix B for the Process
Flowchart – Hearings and Appeals.

For reporting purposes, the MI group freezes the data in the Appeals Review
Processing System (ARPS) on the last Friday in September so it cannot be changed. 23
As a result, the data reported for this PI were run from September 27, 2008 to
September 25, 2009. The calculation of the performance target is performed by dividing
the total number of AC cases pending 750 days or older as of September 25, 2009 by
the total number of AC cases pending 750 days or older as of September 27, 2008.

PI Calculation

                                            Total Number of Appeals Council Cases Pending
     Percent of Oldest Appeals                750 Days or Older as of September 25, 2009
                                      =
      Council Cases Pending                 Total Number of Appeals Council Cases Pending
                                              750 Days or Older as of September 27, 2008




21
  Claimants are told they have 60 days to submit the additional appeal, in addition to a 5-day grace
period to account for mail delays, for a total of 65 days (POMS, GN 03104.100).
22
  If a claimant can submit a valid reason as to why he/she did not submit the appeal within the 60-day
window, he/she is allowed to submit the appeal after the 60-day window has expired (that is, medical
reason where he/she was physically unable to submit the appeal) (POMS, GN 03101.020).
23
  For PI reporting purposes, SSA considers the last Friday in September as the last day of the reporting
period.


Performance Indicator Audit: Hearings and Appeals Backlog (A-15-10-11075)                                  8
Findings

We selected a sample of AC cases that were closed during the FY and a sample of AC
cases that were pending as of the end of the FY to determine the accuracy of the cases
reflected as closed or pending. Based on testwork performed, we did not identify any
significant findings related to the internal controls over the systems supporting the PI. In
addition, we did not identify any significant findings related to the adequacy, accuracy,
reasonableness, completeness, and consistency of the underlying data for the specified
PI in the FY 2009 PAR. However, our audit identified areas for improvement related to
the accuracy of the results presented and disclosed in the PAR.

Accuracy of Underlying Data

In accordance with GAO Standards for Internal Control in the Federal Government,
transactions should be recorded completely, accurately, and timely. 24 We noted the
following.

•     The Office of Appellate Operations (OAO) could not provide detailed data supporting
      the 12,184 cases pending at the beginning of the year as reflected in the PAR. OAO
      provided detailed data supporting 12,320 cases pending, an immaterial difference of
      136 cases. The difference between the amount reported in the PAR at the
      beginning of year and the underlying supporting data is attributed to when OAO
      obtained the data for the PAR. OAO incorrectly ran the reports on September 25,
      2008 (instead of September 27, 2008) and did not capture the actual number
      pending at the beginning of FY 2009. The immaterial difference did not affect the
      accuracy of the PI.

•     For 4 of 25 sampled disability AC cases closed during the FY, the request date per
      the AC request form did not agree with the request date per the ARPS. The
      differences between the disability appeals request date per ARPS and the disability
      appeals request form were caused by clerical errors made when entering the
      appeals request into ARPS. The differences in the dates per ARPS and the
      disability hearing request form did not affect the accuracy of the PI.

•     For 4 of 25 sampled disability AC cases closed during the FY, ODAR could not
      provide the disability AC request form and the Notice of Appeals Council Decision
      letter because these case folders were being used in the regions and could not be
      provided for our audit timely. We were unable to determine whether SSA closed
      these cases during the FY because there was a lack of documentation. These
      missing cases did not affect the accuracy of the PI because of the immaterial impact
      on the overall cases closed.



24
     GAO/AIMD-00-21.3.1, November 1999, p.15.


Performance Indicator Audit: Hearings and Appeals Backlog (A-15-10-11075)                   9
•   For 2 of 25 sampled disability AC cases closed during the FY, the disposition date
    per the AC request form did not agree with the disposition date per ARPS. The
    differences between the disability appeals request date per ARPS and the disability
    appeals request form were caused by clerical errors when entering the appeals
    request into ARPS. The differences in the dates per ARPS and the disability hearing
    request form did not affect the accuracy of the PI.

Based on our audit, we do not believe these issues affected the accuracy of the PI.
However, these issues may lead to future inaccurate reporting of the aging of AC cases
in SSA’s PAR.

ACHIEVE THE TARGET FOR AVERAGE PROCESSING TIME FOR
APPEALS COUNCIL DECISIONS
Indicator Background

See the discussion above under PI, Achieve the Target to Eliminate the Oldest Appeals
Council Cases Pending, for a description of the disability AC business process and
applicable information technology systems.

The reporting phase for the PI is September 27, 2008 through September 25, 2009.
The average processing time of AC decisions is calculated by dividing the cumulative
processing time of all AC decisions made during the year divided by the total number of
AC decisions processed during the FY. The start date for calculating the processing
time begins on the date the Form HA-520, Request for Review of Decision/Order of
ALJ, is filed with SSA. SSA considers the date the AC decision has been processed as
the date the necessary documentation has been released to the claimant that a decision
has been rendered. The number of days it took to process the AC decision is the
number of days between the request date and the date the “Action” document was
released back to the claimant.

PI Calculation

                                               Cumulative Processing Time of All Appeals
Average Processing Time of Appeals                Council Decisions Made in FY 2009
                                           =
        Council Decisions                        Number of Appeals Council Decisions
                                                           Made in FY 2009

Findings

We recalculated the average processing time of AC decisions. Our testwork did not
identify any significant findings related to the internal controls over the systems
supporting the PI. In addition, we did not identify any significant findings related to the
adequacy, accuracy, reasonableness, completeness, and consistency of the underlying
data for the specified PI in the FY 2009 PAR.


Performance Indicator Audit: Hearings and Appeals Backlog (A-15-10-11075)                10
Additionally, our audit identified one overall area for improvement related to internal
controls for these three PIs. In accordance with GAO’s Federal Information System
Controls Audit Manual, information systems should implement a “. . . collection, review,
and analysis of auditable events for indications of inappropriate or unusual activity, and
the appropriate investigation and reporting of such activity.” 25 During our audit
procedures performed over the PIs subject to audit, we were unable to review the audit
logs at the Disability Adjudication Reporting Tool (DART)26 database level because
users did not regularly review audit logs. In addition, users who would review such
audit logs are commonly the same users creating the activity. As such, the opportunity
exists that users could be reviewing their own work. We were unable to review the logs
because there were no active procedures and/or requirement to collect, review, or
analyze activity on the DART database.




25
     GAO Federal Information System Controls Audit Manual, GAO-09-232G, p. 202.
26
 DART is a database built, maintained, and supported by ODAR containing data extracted daily from
Hearings and Appeals Operation Data Store, the official CPMS MI database housed on the mainframe in
Baltimore. DART does not replace the CPMS MI reports on the CPMS menu; rather, it supplements
CPMS MI to help ODAR’s total case processing reporting needs.


Performance Indicator Audit: Hearings and Appeals Backlog (A-15-10-11075)                        11
                                                          Conclusions and
                                                         Recommendations
We did not identify any significant findings related to the internal controls over the
systems supporting the PIs. In addition, we did not identify any significant findings
related to the adequacy, accuracy, reasonableness, completeness, and consistency of
the underlying data for the indicators subject to audit. However, our audit identified
areas for improvement related to internal controls and accuracy of the results presented
and disclosed in the PAR. We recommend that SSA:

1. Consider implementing policies, procedures, and/or training to ensure disability
   hearing and AC request form dates are properly entered into CPMS or ARPS.

2. Consider implementing policies and procedures to ensure the Notice of Disposition is
   sent to the claimant in a timely manner and recorded accurately in CPMS or ARPS.

3. Consider implementing procedures to ensure the CPMS Batch Processing
   Spreadsheet is completed accurately on a daily basis along with the sign-off page to
   document the review of the spreadsheet.

4. Consider implementing procedures to ensure independent personnel regularly
   review activity on the DART database.

In response to prior PI audits, SSA stated it did not maintain data to support some
PIs as a result of computer storage capacity issues and staffing resources. Over
the past several years, technology has evolved. Therefore, this is an opportune
time for SSA to reevaluate computer storage capacity. In prior audits, SSA also
quoted OMB Circular A-11, Preparation, Submission and Execution of the Budget,
which states, “Performance data need not be perfect to be reliable, particularly if
the cost and effort to secure the best performance data will exceed the value of
any data so obtained.” 27 Currently, Circular A-11 states that “Performance data
need not be perfect to be reliable; however, significant data limitations can lead to
inaccurate assessments and distort performance results. Examples of data
limitations include imprecise measurement and recordings, incomplete data, and
inconsistencies in data collection procedures.” 28




27
     OIG Performance Indicator Audit: Outstanding Debt (A-02-05-15116, January 27, 2006, p. D-2).
28
     OMB Circular A-11, Preparing, Submitting, and Executing the Budget, November 2010, Section 230.5.


Performance Indicator Audit: Hearings and Appeals Backlog (A-15-10-11075)                           12
Additionally, Circular A-11, section 230.5, states that verification and validation of
performance data to support the general accuracy and reliability of performance
information reduces the risk of inaccurate performance data and provides a sufficient
level of confidence to the Congress and the public that the information presented is
credible. 29 Although we are not making formal recommendations related to maintaining
data, we encourage SSA to revisit the issue of maintaining data to support the PIs
reported in the Agency’s annual PAR. Maintaining the supporting data would enable
third-party evaluations of the PI, as suggested by Circular A-11.

AGENCY COMMENTS
While SSA agreed with our recommendations, SSA did not agree with our statement to
reevaluate its computer storage capacity. SSA stated that it would not be implementing
any processes for storing PI data because of technical and staffing constraints. SSA
suggested that KPMG consider an equally effective technique for auditing PI activity
“real-time” as they produce it, rather than trying to reconstruct MI 1 year later.

The text of SSA’s general comments can be found in Appendix D.

KPMG Response
We appreciate the Agency’s comments and consideration of our statement. Reviewing
real-time data as SSA produces it only provides evidence that the data are available in
the year produced. It does not provide sufficient evidence of the underlying data
supporting the FY being audited.




29
     Ibid.


Performance Indicator Audit: Hearings and Appeals Backlog (A-15-10-11075)             13
                                           Appendices




Performance Indicator Audit: Hearings and Appeals Backlog (A-15-10-11075)
                                                                            Appendix A
Acronyms

AC                 Appeals Council
Act                Social Security Act
ALJ                Administrative Law Judge
ARPS               Appeals Review Processing System
CPMS               Case Processing and Management System
DART               Disability Adjudication Reporting Tool
DI                 Disability Insurance
FO                 Field Office
FY                 Fiscal Year
GAO                Government Accountability Office
GPRA               Government Performance and Results Act
MHAODS             Master Hearings and Appeals Operational Data Store
MI                 Management Information
OAO                Office of Appellate Operations
OASI               Old-Age and Survivors Insurance
ODAR               Office of Disability Adjudication and Review
OIG                Office of the Inspector General
OMB                Office of Management and Budget
PAR                Performance Accountability Report
PI                 Performance Indicator
POMS               Program Operations Manual System
Pub.L.No.          Public Law Number
SSA                Social Security Administration
SSI                Supplemental Security Income
U.S.C.             United States Code




Performance Indicator Audit: Hearings and Appeals Backlog (A-15-10-11075)
                                                                            Appendix B
Process Flowchart – Hearings and Appeals




Performance Indicator Audit: Hearings and Appeals Backlog (A-15-10-11075)
                                                                                 Appendix C
Scope and Methodology
We obtained an understanding of the Social Security Administration’s (SSA)
Government Performance and Results Act of 1993 (GPRA)1 business processes related
to performance indicators (PI), Achieve the Target to Eliminate the Oldest Hearings
Pending; Achieve the Target to Eliminate the Oldest Appeals Council Cases Pending;
and Achieve the Target for Average Processing Time of Appeals Council Decisions.
This was completed through research and interviewing key SSA personnel from the
Office of Disability Adjudication and Review (ODAR).

Through inquiry, observation, and other substantive testing, including testing source
documentation, we performed the following.

•   Reviewed prior SSA, Government Accountability Office, Office of the Inspector
    General, and other reports related to SSA’s GPRA performance and related
    information systems.
•   Reviewed applicable laws, regulations, and SSA policy.
•   Interviewed appropriate SSA personnel to confirm our understanding of the PIs.
•   Flowcharted the processes (see Appendix B).
•   Documented the data sources used to report on the PIs.
•   Identified and tested critical (key) internal controls (automated and manual) over the
    systems from which performance data are generated.
•   Determined the adequacy, accuracy, reasonableness, completeness, and
    consistency of performance data reported in SSA’s Fiscal Year 2009 Performance
    and Accountability Report.
•   Recalculated each measure to ascertain its accuracy, as necessary.
•   Assessed the reasonableness of the data to determine the data's reliability as it
    pertained to the objectives of the audit and intended use of the data.

As part of this audit, we documented our understanding, as conveyed to us by Agency
personnel, of the alignment of the Agency’s mission, goals, objectives, processes, and
related PIs. We used our understanding of the Agency’s mission, goals, objectives, and
processes to determine whether the PIs appeared to be valid and appropriate.




1
 Pub.L.No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C. and
39 U.S.C.).


Performance Indicator Audit: Hearings and Appeals Backlog (A-15-10-11075)                          C-1
We conducted our performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We determined that the data
used in the report is sufficiently reliable and believe that the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives.




Performance Indicator Audit: Hearings and Appeals Backlog (A-15-10-11075)               C-2
                                                                            Appendix D
Agency Comments




Performance Indicator Audit: Hearings and Appeals Backlog (A-15-10-11075)
                                          SOCIAL SECURITY

MEMORANDUM


Date:      February 10, 2011                                                         Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Performance Indicator Audit: Hearing and
           Appeals Backlog” (A-15-10-11075)--INFORMATION

           Thank you for the opportunity to review the subject report. Please see our attached comments.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Chris Molander, at extension 57401.

           Attachment:
           SSA Response




           Performance Indicator Audit: Hearings and Appeals Backlog (A-15-10-11075)                     D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “PERFORMANCE INDICATOR AUDIT: HEARING AND APPEALS
BACKLOG” A-15-10-11075

Thank you for the opportunity to review the subject draft report. We offer the following
comments.

GENERAL COMMENTS

Page ii and page 11, References to Maintaining Data

You suggest we reevaluate our practices for compiling and maintaining management information
(MI) to support performance indicator (PI) data.

Comment

As we noted in comments on previous PI audits (e.g., “Performance Indicator Audit: Electronic
Service Delivery” (A-15-10-11073)), due to technical and staffing constraints, we are not
implementing any new processes for storing PI data. To obtain the data you seek, we suggest
you consider an equally effective technique for auditing PI activity -- a “real-time” review of
performance measure data as we produce it, rather than trying to reconstruct MI a year later.
While FY 2010 was not the focus of your current audit, it appears you used a real-time approach
to review data from part of that year and “did not find any discrepancies or issues with the
underlying data or the calculations for FY 2010.” Your findings are a strong indication that our
performance information is reliable. Going forward, a similar real-time review should be
sufficient to confirm that fact.

RESPONSES TO RECOMMENDATIONS

Recommendation 1

Consider implementing policies, procedures, and/or training to ensure disability hearing and
appeals council request form dates are properly entered into Case Processing and Management
System (CPMS) or Appeals Review Processing System (ARPS).

Response

We agree. To ensure that employees properly enter information into CPMS and ARPS, we will
provide additional training on the policies and procedures already in place for CPMS and ARPS.

We consider this recommendation closed for tracking purposes.

Recommendation 2

Consider implementing policies and procedures to ensure the Notice of Disposition is sent to the
claimant in a timely manner and recorded accurately in CPMS or ARPS.



Performance Indicator Audit: Hearings and Appeals Backlog (A-15-10-11075)                    D-2
Response

We agree. We will continue to monitor data and make changes to existing policies and
procedures to ensure that we are sending the hearing level and appeal council dispositions to the
claimant in a timely manner and recording the information accurately in CPMS and ARPS.

We consider this recommendation closed for tracking purposes.

Recommendation 3

Consider implementing procedures to ensure the CPMS Batch Processing Spreadsheet is
completed accurately on a daily basis along with the sign-off page to document the review of the
spreadsheet.

Response

We agree. In a February 2010 CPMS release, we implemented an automated process to replace
manual updating of the CPMS Batch Processing Spreadsheet. This process will help to ensure
accuracy.

We consider this recommendation closed for tracking purposes.

Recommendation 4

Consider implementing procedures to ensure independent personnel regularly review activity on
the Disability Adjudication Reporting Tool (DART) database.

Response

We agree with your recommendation; however, we will not implement it in the manner you
suggest. CPMS will become the automated source of management information for this PI, and
we have scheduled a new CPMS release for July 2011.




Performance Indicator Audit: Hearings and Appeals Backlog (A-15-10-11075)                     D-3
                          DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
